No. __________
IN THE SUPREME COURT OF THE UNITED STATES
Melvin Roshard Alfred,
Petitioner,
v.
United States of America,
Respondent
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Petitioner Melvin Roshard Alfred respectfully requests that this Court grant
him leave to proceed in forma pauperis. In support of this request, Petitioner states
that undersigned counsel was appointed pursuant to the Criminal Justice Act,
18 U.S.C. ยง 3599(a)(2), by the United States Court of Appeals for the Tenth Circuit,
and that Petitioner is unable to retain counsel and pay the costs attendant to
proceeding before this Honorable Court.
Respectfully submitted,
VIRGINIA L. GRADY
Federal Public Defender
/s Grant R. Smith
Grant R. Smith
Assistant Federal Public Defender
Counsel of Record for Petitioner
633 17th Street, Suite 1000
Denver, Colorado 80202
(303) 294-7002

